  DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


     Review of FEMA’s Recommendation
              Tracking Process




OIG-07-66                 August 2007
                                                                     Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                     Washington, DC 20528




                                    August 14, 2007



MEMORANDUM FOR:              R. David Paulison
                             Administrator
                             Federal Emergency Management Agency


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Review of FEMA’s Recommendation Tracking Process
                             Report Number: OIG-07-66


The purpose of this memo is to inform you of the status of recommendations contained in reports
that we previously issued to FEMA. We understand that legislative mandates are a priority and
recognize the pressures you are under to fulfill those requirements. Many of our recommendations
are similar to legislative mandates and recommendations from other audit and investigative reports.
As a result, we request that you respond to our open and unresolved recommendations and provide
an implementation plan describing the actions taken or plan to take and address them within 30 days
(please see the attached Appendix for a list of recommendation status definitions).

As required by the Inspector General Act of 1978, as amended, and OMB Circular A-50, agency
management officials are responsible for receiving and analyzing audit reports and taking prompt
corrective action where appropriate. Our responsibility is to monitor the resolution and
implementation actions to ensure that disagreements between us and management are resolved as
promptly as possible, and that corrective actions are implemented as agreed upon by management
officials. The DHS Deputy Secretary will decide any unresolved disagreements between our office
and management. In the coming weeks we will initiate an audit of FEMA responses to audit and
management advisory report recommendations pertaining to Hurricanes Katrina and Rita.

                                     RESULTS OF REVIEW

Between October 5, 2005 and June 12, 2007, we issued 85 reports with 162 recommendations. Of
the 162 recommendations, 22 are open and resolved, 86 are open and unresolved, and 54 are closed
and resolved as of June 12, 2007. Of the 86 open and unresolved recommendations, 64 are open and
unresolved because we have not received a response from FEMA. A majority of our reports cover
housing and debris removal activities and include issues regarding questionable contract costs and
other contracting concerns.



                                                  1
In addition, our March 2006 Inspections Report, A Performance Review of FEMA’s Disaster
Management Activities in Response to Hurricane Katrina, OIG-06-32, contained 38
recommendations, of which 32 were directed to FEMA. FEMA concurred with most of the
recommendations and provided a detailed draft action plan to specifically address how they intend to
comply with the recommendations. However, the official response has not been received.

Other DHS components have faced similar problems organizing and resolving report
recommendations. For example, TSA has implemented a web-based recommendation database to
help track its progress on recommendations more efficiently and resolve them in a timelier manner.
FEMA has recently developed a recommendation-tracking database. Given FEMA’s staffing
constraints, only a portion of the data for this system has been entered. We have no basis to
determine the effectiveness of the system.

We look forward to working closely with FEMA on follow-up of our recommendations.
Specifically, we are interested to learn about the status of the resolved and open, and unresolved
recommendations, as well as FEMA’s plans to address the tracking and communication concern in
the future.

                                     RECOMMENDATIONS

We recommend that the Administrator, FEMA:

           1. Respond to our previously reported recommendations and provide initial comments,
              including implementation plans, describing the actions taken or to be implemented
              and address them within 30 days of this letter.
           2. Describe the actions to be implemented and address all future OIG recommendations
              within 30 days of report release.
           3. Ensure that FEMA’s recommendation-tracking database contains all necessary
              information to provide adequate and timely follow-up, as required by OMB Circular
              A-50.

               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

Please advise us within 30 days of the actions taken to implement our recommendations. Should
you have any questions, please call me, or your staff may contact Matt Jadacki, Deputy Inspector
General for Disaster Assistance Oversight, at 202-254-4100.

Attachment


cc:   Deputy Administrator and Chief Operating Officer, FEMA
      Director of Management and Chief Acquisition Officer, FEMA
      Director, GAO/OIG Liaison Office
      Audit Liaison, FEMA




                                                 2
                                                                                          Appendix



Recommendation Status Definitions

Recommendation status is generally defined, as follows:


Open and Resolved            The agency’s management accepted the recommendation (or a
                             satisfactory resolution was negotiated) and an acceptable action plan
                             was presented along with a target date, but the final action has not
                             taken place.
Open and Unresolved          1) The agency’s management accepts the recommendation but has not
                                 provided an acceptable action plan or a target completion date;
                             2) No response has been received from the agency’s management; or
                             3) The agency’s management does not agree with the
                                 recommendation and has not offered an acceptable alternative.
Closed and Resolved         The agency’s management accepted the recommendation (or a
                            satisfactory resolution was negotiated) and an acceptable action plan
                            was presented along with a target date. Documentation was received
                            that supported the completion of the action steps and final resolution of
                            implementation of the recommendation was confirmed.




                                                 3
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
